           Office of Inspector General




March 2, 2005

LYNN MALCOLM
VICE PRESIDENT, FINANCE, CONTROLLER

WILLIAM P. GALLIGAN
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report - Fiscal Year 2004 Financial Installation
         Audits – Self-Service Postal Centers (Report Number FF-AR-05-073)

This report presents the results of our financial installation audits of 15 statistically
selected self-service postal centers for fiscal year 2004 (Project Number
04XD006FF000). We conducted this audit in support of the audit of the Postal Service’s
financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in accounting records, and, generally, the internal controls we examined
were in place and effective at 14 of the 15 self-service postal centers. However, there
were internal control and compliance issues related to cash and stamp accountability,
requests for vending machine reimbursements, and xxxxxxxxxxxxxxx. Also, for
one self-service postal center, controls over cash and stamp accountability were not in
place and effective.

We recommended management reinforce guidelines to self-service postal center
personnel for requests for refunds from vending machines and for the purpose xxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

Management agreed with our recommendations and actions taken or planned address
the issues in this report. Management’s comments and our evaluation of these
comments are included in the report.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information, please contact Linda J.
Libician-Welch or me at (703) 248-2300.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: Richard J. Strasser, Jr.
    Susan M. Plonkey
    Gladys E. Zamora
    Debra A. Chin
    Steven R. Phelps
Fiscal Year 2004 Financial Installation Audit –                  FF-AR-05-073
 Self-Service Postal Centers




                                      TABLE OF CONTENTS


Executive Summary                                                     i

Part I

Introduction                                                          1

    Background                                                        1
    Objectives, Scope, and Methodology                                1
    Prior Audit Coverage                                              2

Part II

Audit Results                                                         4

   Cash and Stamp Accountability Procedures Need Strengthening        4

   Vending Reimbursement Request Guidelines Were Not Always           8
    Followed
   Recommendation                                                     8
   Management’s Comments                                              8
   Evaluation of Management’s Comments                                8

   xxxxxxxxxxxxxx Program Procedures Were Not Always Followed        9
   Recommendation                                                    9
   Management’s Comments                                             9
   Evaluation of Management’s Comments                              10

Appendix A. Sites Visited                                           11

Appendix B. Management’s Comments                                   12
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-073
 Self-Service Postal Centers


                                     EXECUTIVE SUMMARY
 Introduction                     The Postal Reorganization Act of 1970 requires annual
                                  audits of the Postal Service’s financial statements. We
                                  conduct these audits in support of the audit of the Postal
                                  Service’s financial statements. This report summarizes the
                                  results of our audits at 15 statistically selected self-service
                                  postal centers for fiscal year 2004. The audits at each of
                                  the self-service postal centers were unannounced.

                                  The overall objectives of our audits were to determine
                                  whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records,
                                  and whether internal controls were in place and effective at
                                  the 15 statistically selected self-service postal centers.

 Results in Brief                 Based on the items we reviewed, financial transactions
                                  were reasonably and fairly presented in accounting records,
                                  and, generally, the internal controls we examined were in
                                  place and effective at 14 of the 15 self-service postal
                                  centers. However, there were internal control and
                                  compliance issues related to cash and stamp accountability,
                                  requests for vending machine refunds, and xxxxxxxxx
                                  xxxxxx. Also, for one self-service postal center, controls
                                  over cash and stamp accountability were not in place and
                                  effective.

 Summary of                       We recommended management reinforce guidelines to
 Recommendations                  self-service postal center personnel for requests for refunds
                                  from vending machines and for the purpose xxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxx.

                                  We recently made recommendations addressing cash and
                                  stamp accountability issues in our Fiscal Year 2003
                                  Financial Installation Audit – Self-Service Postal Centers,
                                  (Report Number FF-AR-04-232, dated July 19, 2004).
                                  Therefore, we did not make recommendations on these
                                  issues in this report. On September 15, 2004, the Acting
                                  Vice President Finance, Controller, and the Acting Vice
                                  President, Delivery and Retail, issued a memorandum to the
                                  Vice Presidents, Area Operations, addressing these issues.




                                                    i
Fiscal Year 2004 Financial Installation Audit –                                  FF-AR-05-073
 Self-Service Postal Centers




 Summary of                       Management agreed with each of our recommendations. A
 Management’s                     memorandum will be issued by March 31, 2005, reinforcing
 Comments                         the guidelines for requests for refunds from self-service
                                  vending machines. A memorandum was issued on
                                  September 15, 2004, which reinforced the xxxxxxxxxxxxx
                                  policy. Management’s comments, in their entirety, are
                                  included in Appendix B of this report.

 Overall Evaluation of            Management’s actions taken or planned are responsive to
 Management’s                     the recommendations and should address the issues
 Comments                         identified in the findings.




                                                  ii
Fiscal Year 2004 Financial Installation Audit –                                                   FF-AR-05-073
 Self-Service Postal Centers


                                            INTRODUCTION
    Background                     In fiscal year (FY) 2001, the Office of Inspector General
                                   (OIG) began conducting financial audits at financial
                                   installations, consisting of revenue generating units1 and
                                   stamp distribution offices. We conduct these audits in
                                   support of the overall audit of the Postal Service financial
                                   statements.

                                   The Self-Service Vending Program is one of the Postal
                                   Service’s major programs. It was implemented in 1964 to
                                   increase operating efficiency and customer convenience.
                                   Self-service postal centers are postal units that use vending
                                   machines to provide postage stamps and other retail
                                   products and services. Machines are located in both Postal
                                   Service facilities and nonpostal sites such as shopping
                                   malls, college campuses, large office buildings, and housing
                                   complexes. Locations are added when the demand for
                                   services and products is beyond what can be reasonably
                                   handled by existing Postal Service facilities.

                                   In FY 2004, the Postal Service began using automated
                                   postal centers to supplement existing vending machines.
                                   Automated postal centers are self-service kiosks that offer
                                   customers convenient access to Postal Service products by
                                   accepting debit and credit cards. We plan to address
                                   automated postal centers in our FY 2005 audit plan.

                                   Handbook F-1, Post Office Accounting Procedures,
                                   November 1996 (updated with Postal Bulletin revisions
                                   through March 18, 2004), and Handbook PO-102,
                                   Self-Service Vending Operational and Marketing Program,
                                   May 1999 (updated with Postal Bulletin revisions through
                                   April 29, 2004), give procedures for unit operations and
                                   oversight.

    Objectives, Scope,             The overall objectives of our audit were to determine
    and Methodology                whether financial transactions of field operations were
                                   reasonably and fairly represented in the accounting records,
                                   and whether internal controls were in place and effective.

                                   To accomplish our objectives, we conducted fieldwork
                                   during FY 2004. We statistically selected 15 self-service

1
    Includes post offices, contract postal units, self-service postal centers, and business mail entry units.




                                                        1
Fiscal Year 2004 Financial Installation Audit –                                                   FF-AR-05-073
 Self-Service Postal Centers


                                  postal centers for review from a population of 736 units.
                                  (See Appendix A for sites selected.) These 15 units
                                  reported $7.4 million in revenue in FY 2003. The audits at
                                  each of the self-service postal centers were unannounced.
                                  We traced recorded financial transactions to and from
                                  supporting documentation and assessed the reliability of
                                  computerized data by verifying the computer records to
                                  source documents. We also evaluated whether the internal
                                  control structure over financial reporting and safeguarding of
                                  assets was implemented and functioning as designed.

                                  We conducted this audit from November 2003 through
                                  March 2005 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments, where appropriate. We issued individual reports
                                  to management at each statistically selected site.

    Prior Audit Coverage          Before FY 2001, the Postal Inspection Service conducted
                                  financial installation audits. We evaluated all findings
                                  reported by the Postal Inspection Service in individual site
                                  reports from FYs 1999 and 2000 and by the OIG in
                                  FYs 2001 through 2003 and reported the status of
                                  recommendations in the individual site reports.

                                  In our summary report on self-service postal centers for
                                  FY 2003,2 we reported management could reinforce
                                  procedures for stamp and cash accountability xxxxxxxx
                                  xxxxxxxxxxxxxxxxxxx. We also reported management
                                  could revise Handbook PO-102, Self-Service Vending
                                  Operational and Marketing Program, May 1999 (updated
                                  with Postal Bulletin revisions through December 25, 2003),
                                  to include specific procedures for machine servicing during
                                  periods of short-term absences that do not require
                                  emergency servicing.

                                  Management issued a memorandum dated August 19,
                                  2004, to Area Vice Presidents to reiterate the need for
                                  adherence to current policies and procedures for cash and
                                  stamp accountability. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

2
 Fiscal Year 2003 Financial Installation Audit – Self-Service Postal Centers (Report Number FF-AR-04-232, dated
July 19, 2004).




                                                        2
Fiscal Year 2004 Financial Installation Audit –                                    FF-AR-05-073
 Self-Service Postal Centers


                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxx. However, management stated it would create
                                  a task force by September 15, 2004, to update and revise
                                  Handbook PO-102, Self-Service Vending Operational and
                                  Marketing Program, by December 31, 2004.

                                  Because we completed most of our FY 2004 audits before
                                  management issued the August 19, 2004, memorandum,
                                  management’s actions did not affect the self-service postal
                                  centers we audited. Therefore, we have not determined
                                  whether management’s actions effectively addressed the
                                  issues identified in our FY 2003 report.




                                                  3
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-073
 Self-Service Postal Centers


                                          AUDIT RESULTS
 Cash and Stamp                   While controls over cash and stamp accountability were
 Accountability                   generally in place and effective at 14 of the 15 self-service
 Procedures Need                  postal centers, self-service postal centers did not always
 Strengthening                    adhere to cash and stamp accountability procedures. Also,
                                  for one self-service postal center, controls over cash and
                                  stamp accountability were generally not in place and
                                  effective.

                                  Management and staff did not always conduct accountability
                                  examinations or report discrepancies to the Postal Inspection
                                  Service, and Technicians did not always transfer
                                  accountabilities during absences. Controls over cash and
                                  stamp stock, accountability keys, and duplicate key
                                  envelopes were not always functioning. Also, cash reserves
                                  were not always authorized and Postal Service (PS) Form 25,
                                  Trust Fund Account, was not always maintained, and cash
                                  reserves were not authorized. These weaknesses
                                  contributed to shortages at six units ranging from $214 to
                                  $8,399, totaling $18,244, and overages at five units ranging
                                  from $192 to $9,292, totaling $14,238.

                                  Overall, management and staff did not ensure the controls
                                  established by the Postal Service were adequately
                                  functioning. In most instances, they were unaware of
                                  prescribed procedures. Until controls are functioning as
                                  prescribed, there is an increased risk of loss of assets and
                                  misstatement of financial transactions.

 Accountability                   At seven units, Supervisors did not conduct accountability
 Examinations Were                examinations every four months, as required. Generally, the
 Not Always Conducted             time between examinations varied between seven and
 and Discrepancies Not            ten months. Supervisors stated time constraints and other
 Always Reported                  duties took priority and prevented them from conducting
                                  examinations at the required frequency. According to
                                  Handbook PO-102, Self-Service Vending Operational and
                                  Marketing Program, Section 61, May 1999 (updated with
                                  Postal Bulletin revisions through April 29, 2004), supervisory
                                  personnel must examine the self-service vending credit at
                                  least once every four months and document the reviews
                                  (repeat finding).

                                  Furthermore, at three units, employees did not complete
                                  PS Form 571, Discrepancy of $100 or More in Financial



                                                   4
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-073
 Self-Service Postal Centers


                                  Responsibility, to notify the Postal Inspection Service of
                                  discrepancies, as required by Handbook PO-102, Section 64.
                                  For example, one unit did not report an overage of more than
                                  $9,200. In this instance, the Supervisor stated he did not
                                  understand the requirement (repeat finding).

                                  If accountability examinations are not conducted as required,
                                  the financial records could be misstated. Further, cash,
                                  accountable paper, and other sensitive items could be lost
                                  without detection. When PS Forms 571 are not completed,
                                  the Postal Inspection Service is not made aware of
                                  discrepancies.

 Accountabilities Were            At five units, Servicing Technicians did not transfer
 Not Transferred During           accountabilities to a replacement servicing employee during
 Absences                         extended periods of absence, as required by
                                  Handbook PO-102, Section 611. According to the
                                  Technicians, they were unaware of the requirement and the
                                  required staff was not available. If accountabilities are not
                                  transferred to a replacement employee, management cannot
                                  establish accountability over inventory (repeat finding).

 Cash and Stamp Stock             Employees at nine self-service postal centers did not always
 Not Always Secured               follow prescribed security procedures for cash and stamp
                                  stock. Specifically:

                                      •    At eight units, Servicing Technicians improperly stored
                                           cash and stamps xxxxxxxxxxxxxxxxxxxxx. According
                                           to Handbook PO-102, Section 561, cash and stamps
                                           not loaded in self-service vending equipment must not
                                           be stored xxxxxxxxxxxxxxxxxxxxxxxxxxxx.
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxx

                                      •    At three units, Servicing Technicians did not secure
                                           stamp stock and cash xxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxx. Generally,
                                           Technicians stated they were not aware of the
                                           requirement (repeat finding).

                                      •    At one unit, the Servicing Technician left stamp stock
                                           and cash inside a locked van, but did not conceal the



                                                     5
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-073
 Self-Service Postal Centers


                                           stamp stock and cash from public view, as required by
                                           Handbook F-1, Sections 416.1.1 and 422.1.1. The
                                           technician stated he was not aware of the requirement
                                           (repeat finding).

                                  If prescribed security procedures are not followed, the Postal
                                  Service has an increased risk of losing assets.

 Controls Over Key                Unit management did not adhere to procedures for key
 Accountability and               accountability, including examination, maintenance, and
 Duplicate Key                    verification. Specifically:
 Envelopes Need
 Improvement                          •    At seven units, Supervisors did not perform the annual
                                           examination of locks and keys for the Servicing
                                           Technician, as required by Handbook F-1, 426.2.8,
                                           November 1996 (updated with Postal Bulletin revisions
                                           through March 18, 2004) (repeat finding).

                                      • Nine units did not maintain or verify PS Form 2018,
                                        Duplicate Key, PIN and Combination Inventory, or
                                        PS Form 3977, Duplicate Key Envelope.
                                        Handbook PO-102, Section 562, and Handbook F-1,
                                        Section 372, respectively, provide instructions for
                                        maintaining these forms (repeat finding).

                                  Generally, personnel stated they were not aware of the
                                  requirements. If units do not follow procedures for
                                  examination, maintenance, and verification, the Postal
                                  Service has an increased risk of unauthorized access to
                                  vending accountability and loss of assets.

 Cash Reserve Not                 Four units did not either have an authorized cash
 Always Authorized                reserve from the District Finance Manager or maintain
                                  PS Form 3369-P, Consigned Credit Receipt, on file, as
                                  required by Handbook PO-102, Section 54. Generally,
                                  Supervisors stated they were not aware of the requirement. If
                                  the District Finance Manager does not authorize cash
                                  reserves, there is an increased risk the reserve may be
                                  incorrect (repeat finding).

 PS Form 25 Was Not               At five units, the Servicing Technician did not maintain a
 Always Used                      separate subaccount record for each vending machine using
                                  PS Form 25, Trust Fund Account, as required by
                                  Handbook PO-102, Section 552. Generally, Technicians
                                  stated they were not aware of the requirement. If Technicians



                                                    6
Fiscal Year 2004 Financial Installation Audit –                                   FF-AR-05-073
 Self-Service Postal Centers


                                  do not maintain separate PS Forms 25 for each vending
                                  machine, there is an increased risk that an equipment
                                  malfunction or theft from a machine may not be detected
                                  (repeat finding).




                                                  7
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-073
 Self-Service Postal Centers




 Vending                          At four units, Servicing Technicians and Supervisors did not
 Reimbursement                    always follow vending reimbursement guidelines.
 Request Guidelines               Specifically:
 Were Not Always
 Followed                             •    At two units, PS Form 5445, Stamp Vending Machine
                                           Reimbursement Request, was not used to document
                                           customer requests for refunds from vending machines.

                                      •    At three units, reimbursement requests were not paid
                                           by cash or a no-fee postal money order.

                                      •    At one unit, a supervisor did not authorize refunds
                                           over $20.

                                  Handbook PO-102, Sections 81 and 82, gives guidelines for
                                  handling requests for vending machine reimbursements.
                                  Technicians gave convenience as the reason for not adhering
                                  to the procedures. If units do not follow the refund guidelines,
                                  the Postal Service cannot determine whether the correct
                                  amounts are being refunded.

 Recommendation                   We recommend the Vice President, Finance, Controller, and
                                  the Vice President, Delivery and Retail:

                                      1. Reinforce guidelines for requests for refunds from
                                         self-service vending machines.

 Management’s                    Management agreed with the recommendation and stated a
 Comments                        memorandum will be issued by March 31, 2005, to reinforce
                                 the guidelines for refunds for self-service vending machines.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation and actions planned should address the
 Comments                        issues identified in our finding.




                                                    8
Fiscal Year 2004 Financial Installation Audit –                                        FF-AR-05-073
 Self-Service Postal Centers




 xxxxxxxxxxxxxx                   Eight of the fifteen self-service postal centers did not follow
 Program Procedures               xxxxxxxxxxxxxxxxxx procedures. Specifically:
 Were Not Always
 Followed                             •    Servicing Technicians at eight units did not carry xxxx
                                           xxxxxxxxxxxx in cash bags while servicing the
                                           machines (repeat finding).

                                      •    At four units, management did not issue the xxxx
                                           xxxxxxxxxxxx to the Servicing Technicians (repeat
                                           finding).

                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxx. Generally, management and the
                                  Servicing Technicians stated they were unaware of the bait
                                  money order requirements. Consequently, the Postal Service
                                  has an increased risk that stolen items may not be traceable.

                                  The xxxxxxxxxxxxxxxxx issues were also identified in our
                                  FY 2003 report. Management agreed with our
                                  recommendation in that report and stated a memorandum
                                  would be issued to every manager of vending servicing
                                  personnel by September 15, 2004, to address the correct
                                  procedures for xxxxxxxxxxx. Furthermore, Postal Service
                                  areas would be advised to institute a policy of unannounced
                                  spot checks by managers of self-service postal centers at
                                  least once each quarter to ensure xxxxxxxxxxxxxxx are being
                                  used appropriately. However, the September 15, 2004,
                                  memorandum addressed cash and stamp accountability, but
                                  did not address xxxxxxxxxxxxxxxxxxx.

 Recommendation                   We recommend the Vice President, Delivery and Retail:

                                      2. Reinforce to self-service postal centers the purpose
                                         and procedures xxxxxxxxxxxxxxxxxxxxxxx.

 Management’s                    Management agreed with the recommendation and stated a
 Comments                        memorandum was issued on September 15, 2004, which
                                 reinforced the xxxxxxxxxxxxxxxxx policy.




                                                    9
Fiscal Year 2004 Financial Installation Audit –                                FF-AR-05-073
 Self-Service Postal Centers




 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation and actions taken should address the issues
 Comments                        identified in our finding.




                                                  10
Fiscal Year 2004 Financial Installation Audit –                                          FF-AR-05-073
 Self-Service Postal Centers




                                APPENDIX A. SITES VISITED


         Self-Service Postal Centers                                          Location
    1. xxxxxxxxxxx                                     xxxxxxxxxxx, California
    2. xxxxxxxxxx                                      xxxxxxxxx, Illinois
    3. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx              xxxxxxxxxxx, California
    4. xxxxxxxxx                                       xxxxxxxxx, Florida
    5. xxxxxxxxxxxxxxxxx                               xxxxxxxxxxxx, Florida
    6. xxxxxxx                                         xxxxxx, Nevada
    7. xxxxxxxxxxxx                                    xxxxxxxx, California
    8. xxxxxxxx                                        xxxxxxxxx, Ohio
    9. xxxxxxxxxx                                      xxxxxxxxx, Tennessee
    10. xxxxxxxxx                                      xxxxxxxx, Texas
    11. xxxxxxxxxxxxxxxxxx                             xxxxxxxxxxxxxxxxxxxxxxxx
    12. xxxxxxxxxxx                                    xxxxxxxxx, Louisiana
    13. xxxxxxxxxx                                     xxxxxxxx, Arizona
    14. xxxxxxxxxxxxxx                                 xxxxxxxxxxxxxx, Colorado
    15. xxxxxxxxxxx                                    xxxxxxxxxx, South Dakota




                                                  11
Fiscal Year 2004 Financial Installation Audit –         FF-AR-05-073
 Self-Service Postal Centers



                    APPENDIX B. MANAGEMENT’S COMMENTS




                                                  12
Fiscal Year 2004 Financial Installation Audit –        FF-AR-05-073
 Self-Service Postal Centers




                                                  13
Fiscal Year 2004 Financial Installation Audit –        FF-AR-05-073
 Self-Service Postal Centers




                                                  14
